               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 13-02599-311



             Healthcare Inspection

          Laboratory Delays and 

       Alleged Staff Training Issues 

       Memphis VA Medical Center 

           Memphis, Tennessee




September 16, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations: 

                  Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

                    Web site: www.va.gov/oig

        Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations made by two complainants about delays impacting
patient care and a lack of training in the Pathology and Laboratory Medicine Service at
the Memphis VA Medical Center, Memphis, TN. Specifically, the complainants alleged
that: laboratory tests were not processed or reported in a timely manner, employees
were not allowed to be trained on vital laboratory equipment and processes, and a
patient experienced a delay in care while waiting for results from laboratory tests
necessary for further treatment.

We substantiated the allegation that laboratory tests were not processed in a timely
manner. We found that 23 of 50 (46 percent) laboratory tests ordered urgently were not
processed within the two-hour time frame required by local policy. We also found that
47 of 50 (94 percent) of these tests were not processed within one hour as expected by
the facility and Veterans Integrated Service Network 9 leadership.

We did not substantiate the allegation that there were delays in reporting test results
with critical values to ordering providers.

We substantiated the allegation that a patient experienced a lengthy delay in treatment
while waiting for laboratory test results necessary for further evaluation. This issue was
resolved while we were on site.

We did not substantiate the allegation that Pathology and Laboratory Medicine Service
staff were not allowed to be trained on vital laboratory equipment and processes.

We recommended that: the Facility Director ensure that processes be strengthened to
ensure that laboratory turnaround times adhere to facility and Veterans Integrated
Service Network 9 expectations, and that the Facility Director ensure that policies and
processes are put in place to establish consistent and appropriate methods for data
collection and analysis of laboratory test processing times.

Comments
The VISN and Facility Directors concurred with the inspection results (see
Appendixes A and B, pages 5–7, for the full text of their comments). We will follow
up on the planned actions until they are completed.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections




VA Office of Inspector General                                                                   i
        Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN



                                         Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations made by two complainants regarding
delays impacting patient care and a lack of training in the Pathology and Laboratory
Medicine Service (PLMS) at the Memphis VA Medical Center, Memphis, TN (the
facility).

                                     Background 

The facility is part of Veterans Integrated Service Network (VISN) 9. The facility has
244 beds and provides acute medical and surgical, as well as a full range of primary,
specialty, and subspecialty care.

On April 10, 2013, a complainant contacted the OIG and alleged that:

    	 Laboratory tests were not processed in a timely manner.

    	 Laboratory test results were not reported in a timely manner, causing delays in
       patient care, specifically in the Emergency Department (ED) and the Operating
       Room (OR).

    	 Employees were not allowed to be trained on vital laboratory equipment and
       processes.

On April 29, 2013, another complainant contacted the OIG and alleged that:

    	 A patient experienced a delay in care due to waiting for laboratory test results
       necessary for further treatment.

                            Scope and Methodology 

We conducted a site visit May 28–29, 2013. We interviewed executive leaders,
administrative and clinical staff from PLMS, and staff from other areas of the facility.
We reviewed Veterans Health Administration (VHA) and facility policies, electronic
health records (EHR), PLMS employee training and competency validation
documentation, quality assurance documents, meeting minutes, and standards from the
College of American Pathologists and The Joint Commission.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                   1
          Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN



                                       Inspection Results 

Issue 1: Processing of “Stat” Tests

We substantiated the allegation that laboratory tests were not processed in a timely
manner.

Turnaround time (TAT) for the purposes of this report is the time from when the
specimen (usually blood, urine, or tissue) arrives in the laboratory until the time results
are available in the EHR. It should be noted that TAT does not include the time
required to obtain specimens and transport them to the laboratory, which can cause
substantial additional delays in results availability. Laboratory tests with stat1 urgency
are typically ordered for patients in the ED, pre-operative patients about to go to the OR,
or patients requiring urgent treatment.

The local policy, which expired in March 2012, indicated that stat laboratory tests should
be processed within two hours. However, we were told by the clinical leadership and
other staff that the expectation is a one-hour TAT for stat laboratory tests. Additionally,
VISN 9 has a performance measure target of 80 percent of stat laboratory tests to be
processed within one hour.

We reviewed facility PLMS performance improvement data and found that staff
measured TAT in several different ways, with a lack of consistency in data collection
and analysis methods. We reviewed the TAT data reported by the facility to VISN 9 and
found that this data was incorrectly calculated.

Of the various methods of data collection utilized by PLMS staff, we found that TAT data
that was manually collected and analyzed by a supervisor, for stat laboratory tests
ordered in the ED, was the most reliable. The supervisor found that 5 of 12 tests
reviewed in November 2012 and 6 of 17 tests reviewed in April 2013 did not meet the
one-hour expectation. These results were corroborated by our review of the EHRs of
50 patients treated in the ED with critical value2 results from stat laboratory tests
completed during March and April 2013. We found that 23 of 50 (46 percent) of these
tests were not processed within the two-hour time frame, and 47 of 50 (94 percent)
were not processed within the one-hour time frame expected by clinical leadership.

Another TAT measured by PLMS was the time it took to process surgical specimen
pathology results. The College of American Pathologists requires that surgical
specimens requiring analysis have results available within 2 working days. According to
facility performance improvement data from October 1, 2012, through March 31, 2013,

1
   Stat is an abbreviation of the Latin term statim, meaning “immediately.” It is often used in medical context such
as in hospital emergency rooms when something is needed urgently.
2
  According to VHA Directive 2009-019, Ordering and Reporting Test Results, March 24, 2009, a critical test result
is defined as those values or interpretations that, if left untreated, could be life threatening or place the patient at
serious risk.



VA Office of Inspector General                                                                                        2
           Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN



1,015 of 3,330 surgical pathology cases (31 percent) were not processed within
2 working days.

Issue 2: Reporting of Critical Value Results and Results for OR Patients

We did not substantiate the allegation that laboratory tests were not reported in a timely
manner. Local policy requires that laboratory results with critical values be reported to
the ordering provider within 45 minutes.

Of the 50 patients treated in the ED who had critical value results during March and
April 2013, we found that 49 of 50 (98 percent) of the test results were reported within
45 minutes of completion of the test. This correlated with PLMS performance
improvement data from March 2013, which showed that 100 percent of 128 laboratory
tests with critical values were reported within 45 minutes of test completion.

We reviewed OR performance improvement data for October 2012 through May 2013.
We found that of 973 OR delays, only 15 (1.5 percent) were related to PLMS. Neither
the Chief of Surgery nor the OR Nurse Manager identified any issues related to PLMS
causing delays for surgical patients.

Issue 3: Employee Training

We did not substantiate the allegation that employees were not allowed to be trained on
vital lab equipment and processes. VHA policy3 requires that employees’ competency
be assessed annually, and that PLMS provide staff development and continuing
education opportunities.

We reviewed training files of 15 PLMS employees, with emphasis on those who work
the night shift in the Core Laboratory and are required to be proficient in different areas.
We found that 14 of 15 employees had documentation of all required training, and 12 of
15 had documentation of current competency validation.

Issue 4: Delay in Patient Care

We substantiated the allegation that a patient experienced a lengthy delay waiting for
laboratory tests results that were necessary for treatment decisions.

In April 2010, the patient underwent a total knee replacement at the facility, and a
revision was done in May 2012. Symptoms persisted for the patient, and the orthopedic
surgeon suspected a possible allergy to the metals used in the implant.

In March 2013, a lymphocyte transformation test (LTT) was ordered by the surgeon
because of the possibility of metal allergies, and blood was drawn for processing. The
LTT is a specialized test requiring that the blood sample be obtained using a special kit
and processed in an outside laboratory. PLMS staff learned these facts after the blood

3
    VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 8, 2008


VA Office of Inspector General                                                                      3
        Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN



was drawn. The kit was subsequently ordered with the intent that the patient would
have blood re-drawn using the correct process. The kit arrived at the facility in April
2013; however, there was miscommunication between the surgeon and PLMS, and the
patient was never notified that a re-draw was necessary. During our site visit, the
surgeon contacted the patient and coordinated test completion with PLMS.

                                     Conclusions 

We substantiated the allegation that laboratory tests were not processed in a timely
manner. We found that 23 of 50 (46 percent) ED stat laboratory tests were not
processed within the two hour established time frame, and that 47 of 50 (94 percent) of
these tests were not processed within the one-hour time frame expected by facility
clinical leadership and VISN 9. We also found that the correct measure of turnaround
time was inconsistently applied.

We did not substantiate the allegation that critical value results and results for operating
room patients were not being reported in a timely manner to ordering providers.

We did not substantiate the allegation that employees were not allowed to be trained on
vital laboratory equipment and processes.

We substantiated the allegation that a patient experienced a lengthy delay waiting for
laboratory tests results necessary for further treatment. The issue was resolved while
we were on site.

                                 Recommendations 

1. We recommended that the Facility Director ensure that processes be strengthened to
ensure that laboratory turnaround times adhere to facility and VISN 9 expectations.

2. We recommended that the Facility Director ensure that policies and processes are
put in place to establish consistent and appropriate methods for data collection and
analysis of laboratory turnaround times.




VA Office of Inspector General                                                                   4
        Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN
                                                                                       Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                   Memorandum


   Date:	      August 9, 2013

   From:	      Director, VA Mid South Healthcare Network (10N9)

   Subject: Healthcare Inspection – Laboratory Delays and Alleged Staff
            Training Issues, Memphis VA Medical Center, Memphis, TN

   To: 	       Director, Bay Pines Office of Healthcare Inspections (54SP)
               Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)


             1. 	 Please see the attached response by the VA Medical Center,
                 Memphis, TN to the Healthcare Inspection - Laboratory Delays
                 and Alleged Staff Training Issues, OIG Hotline on-site review
                 conducted May 28-29, 2013.

             2. 	 I concur with the updated responses.

             3. 	 If you have any questions or need additional information, please
                 contact Cynthia Johnson, VISN Quality Manager, at (615) 695-
                 2143.


              (original signed by:)
             Jim Hayes, Acting Deputy Network Director for 

             JOHN E. PATRICK





VA Office of Inspector General                                                                   5
         Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN
                                                                                        Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                    Memorandum


   Date:       August 7, 2013

   From:       Director, Memphis VA Medical Center (614/00)

   Subject: Healthcare Inspection – Laboratory Delays and Alleged Staff
            Training Issues, Memphis VA Medical Center, Memphis, TN

   To:         Director, VA Mid South Healthcare Network (10N9)



              1. 	 Attached please find the response to the Healthcare Inspection
                   – Laboratory Delays and Alleged Staff Training Issues, OIG
                   Hotline on-site review conducted May 28-29, 2013.

             2. 	 I concur with the responses.

             3. 	 If you have any questions regarding the information provided,
                  please contact Jan Slate, Accreditation Manager, Quality
                  Management and Performance Improvement. Mrs. Slate can
                  be reached at (901) 577-7379, menu choice #5.


             (original signed by:)
             C. DIANE KNIGHT, MD, CMD

             Attachment




VA Office of Inspector General                                                                    6
         Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical Center, Memphis, TN




                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Medical Center Director ensure that
processes be strengthened to ensure that laboratory turnaround times adhere to facility
and VISN 9 expectations, and CAP standards.

Concur

Target date for completion: August 31, 2013

Facility response: The Facility Service had reviewed and updated the existing Service
Policy Memorandum (Number: 113-14) now titled: “Defined Turnaround Times for
Clinical Pathology Laboratory Testing” to ensure that laboratory turnaround times
adhere to Facility, VISN 9 and College of American Pathologists (CAP) standards.
Additionally, all Pathology and Laboratory Medicine (PLMS) Staff will be educated on
the new, updated laboratory turnaround time policy. PLMS Supervisors will be required
to review the policy with their assigned employees and will obtain signature of the
employees acknowledging notification and understanding of the new change in policy.
Moreover, in accordance to the updated policy, PLMS is implementing a plan to
consistently track turnaround times from specimen arrival to results reporting.

Recommendation 2. We recommended that the Facility Director ensure that policies
and processes are put in place to establish consistent and appropriate methods for data
collection and analysis of laboratory turnaround times.

Concur

Target date for completion: September 30, 2013

Facility response: PLMS will establish a data capturing system to ensure consistent
and appropriate data collection and analysis of laboratory turnaround times.
Additionally, the Facility Service will institute a new Quality Management monitor of
laboratory turnaround times. Appropriate training and education of PLMS personnel will
also be planned and implemented. Initially, monitoring of laboratory turnaround times
will be done manually and electronically. However, the Facility Service is exploring
alternative methods to capture the data electronically. Monitoring of laboratory
turnaround times will be reported monthly at PLMS Supervisor and Facility QA
meetings.




VA Office of Inspector General                                                                    7
             Alleged Laboratory Delays and Training Issues, Memphis VA Medical Center, Memphis, TN
                                                                                      Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Douglas Henao, MS, RD, Team Leader
                         Darlene Conde-Nadeau, MSN, ARNP
                         Karen McGoff-Yost, LCSW, MSW
                         Carol Torczon, MSN, ACNP
                         Jerome Herbers, MD




VA Office of Inspector General                                                                  8
             Alleged Laboratory Delays and Training Issues, Memphis VA Medical Center, Memphis, TN
                                                                                      Appendix D




                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Director, VA Mid South Healthcare Network (10N9)
Director, Memphis VA Medical Center, Memphis, TN (614/00)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lamar Alexander, Bob Corker
U.S. House of Representatives: Steve Cohen



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                  9
